wT

C@QCKLE

2311 Douglas Street Le ga l B rie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-168

REMINGTON ARMS CO. LLC AND
REMINGTON OUTDOOR CO. INC, PETITIONERS

v.
DONNA L. SOTO, ADMINSTRATRIX OF THE ESTATE OF
VICTORIA L. SOTO, ET AL.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 4th day of September, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE NATIONAL SHOOTING SPORTS
FOUNDATION AS AMICUS CURIAE IN SUPPORT OF THE PETITIONERS in the above entitled case. All parties
required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

LAWRENCE G. KEANE JONATHAN F. MITCHELL
National Shooting Counsel of Record

Sports Foundation Mitchell Law PLLC
400 North Capitol Street 111 Congress Avenue
Suite 475 Suite 400
Washington, D.C. 20001 Austin, Texas 78701
(202) 220-1340 (512) 686-3940
Ikeane@nssf.org jonathan@mitchell.law

Counsel for Amicus Curiae

Subscribed and sworn to before me this 4th day of September, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
soit , Elite Qndeow-h,

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38572
Scott A. Keller

Baker Botts LLP

1299 Pennsylvania Ave., NW
Washington, DC 20004
202-639-7837
scott.keller@bakerbotts.com

Counsel for Petitioners

Joshua David Koskoff

Koskoff, Koskoff & Bieder, P.C.
350 Fairfield Avenue
Bridgeport, CT 06604
203-336-4421
JKoskoff@Koskoff.com

Counsel for Respondents
